U.S. Department of the Interior
Office of Inspector General




       ADVISORY REPORT


        JASPER LAND EXCHANGE,
        BUREAU OF RECLAMATION

            REPORT NO. 00-I-280
                MARCH 2000
              United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                   Washington. DC. 20240




MEMORANDUM

TO:                        The Secretary

FROM:                      Earl E. Devaney
                           Inspector General

SUBJECT SUMMARY: Final Advisory Report - “Jasper Land Exchange, Bureau of
                 Reclamation”

Attached for your information is a copy of the subject final advisory report. The executive
summary (page 1) synopsizes the report’s background, objective, and results and provides
the auditee’s comments on the report.

If you have any questions concerning this matter, please contact me at (202) 208-5745 or
Mr. Robert J. Williams, Assistant Inspector General for Audits, at (202) 208-4252.



Attachment

cc: Chief of Staff
      Assistant Secretary for Policy, Management and Budget
      Director, National Business Center
      Office of Communications
U.S. Department of the Interior                            Office of the Inspector General


                             EXECUTIVE SUMMARY

                                  Jasper 1,and Exchange,
                                  Bureau of Reclamation
                                   Report No. 00-I-280
                                       March 2000

BACKGROUND

The Bureau of Reclamation (BOR) acquires land for constructing its water development
projects and for mitigating the environmental impacts associated with those projects. The
land involved in the Jasper land exchange is adjacent to and in the vicinity of the Cascade
Reservoir, located near Boise, Idaho. The Reservoir was constructed in 1948 as an irrigation
and hydroelectric facility. Section 5 of Public Law 86-92, enacted in July 1959, authorizes
BOR to exchange Federal lands in the vicinity of the Reservoir that are no longer needed for
project purposes for lands of “approximately equal value.” When BOR purchased the
private property to create the Reservoir, many of the sellers requested and received
permanent easement rights to continue to use the land for cattle grazing and farming.

In 1991, BOR prepared a Resource Management Plan, which recommended that BOR
address deficiencies in water quality at the Reservoir by acquiring the permanent agricultural
easements around the Reservoir, thereby obtaining full title to these lands. The Jasper
exchange is the first exchange since the 1970s in which BOR has sought to acquire such an
easement. In March 1997, the former Regional Director of the Pacific Northwest Region
negotiated a tentative agreement with the Jasper family, which owns an agricultural
easement on about 278 acres adjacent to the Reservoir. On April 14, 1998, BOR and the
Jaspers signed a land exchange contract.

On July 1, 1998, an official of the Western Land Exchange Project contacted BOR and
questioned the adequacy of the environmental documentation for the exchange.
Subsequently, on July 17, 1998, BOR’s realty and environmental personnel from the Snake
River Area Office and the Regional Office determined that a site-specific environmental
assessment was needed. As of October 1999, BOR had not initiated work on the
environmental assessment, and the land exchange had not been finalized because issues
concerning the points of access to the Reservoir had not been resolved.

OBJECTIVE

Our review of the Jasper land echange was conducted as part of our survey of BOR’s land
acquisition activities. The objective of our survey was to determine whether BOR conducted
land acquisition activities in accordance with applicable laws and regulations and paid a fair
price for the land acquired. The results of our overall survey will be presented in a separate
report.
RESULTS IN BRIEF

We found that the Pacific Northwest Region did not prepare the required environmental
documentation for the Jasper land exchange or establish fair value for the land to be
exchanged. The National Environmental Policy Act and the Departmental and Reclamation
Manuals establish requirements for environmental documentation, and the Uniform
Standards of Professional Appraisal Practice, the Uniform Appraisal Standards for Federal
Land Acquisitions, and the Reclamation Manual provide guidance for preparing and
reviewing appraisals and consulting reports. The Reclamation Manual also authorizes
regional directors or their designees to acquire land for more than the appraised fair market
value within specified limitations. BOR officials told us that the land exchange as originally
planned would not have required a separate environmental assessment and that they
considered the exchange to be fair because of additional benefits accruing to the Government
which they believed equalized the values of the lands being exchanged. In our opinion,
however, the Region did not adequately protect the Government’s interests when it entered
into the Jasper land exchange contract.

RECOMMENDATIONS

This report did not contain any recommendations; however, we made suggestions to the
Pacific Northwest Region regarding the land exchange process. Specifically, we suggested
that the Region comply with requirements of the National Environmental Policy Act before
it enters into binding agreements, request written clarification from the Regional Solicitor
on whether BOR has the authority to administratively adjust the value of land exchanges
conducted under Public Law 86-92, and use appraisals prepared in accordance with
applicable appraisal standards and the Reclamation Manual rather than consulting reports in
establishing property values in land exchanges.

AUDITEE COMMENTS

BOR officials generally concurred with the report’s findings and our suggestions. We
considered the officials’ comments and incorporated them into this report as appropriate.
Subsequent to the discussion, BOR provided us with a copy of a letter from the Office of the
Solicitor, Pacific Northwest Region, dated February 10, 2000, to the Jaspers’ attorney,
stating that the April 14, 1998, land exchange contract with the Jaspers had been voided
because of “mutual mistakes of fact” regarding property boundaries and compliance with
environmental assessment requirements.




                                              2
                                                                                W-IN-BOR-004-99(A)-R


                United States Department of the Interior
                                                                                                        ..
                                 OFFICE OF INSPECTOR GENERAL
                                           Washington. DC. 20240


                                                                                           MAR 3 1 I:::

                                   ADVISORY REPORT
Memorandum

To:        Commissioner, Bureau of Reclamation

From:      Roger La Rouche %%L=
           Acting Assistant Inspector General for Audits

Subject: Advisory Report on the Jasper Land Exchange, Bureau of Reclamation
         (No. 00-I-280)

                                       INTRODUCTION
This report presents the results of our review of the pending Jasper land exchange being
conducted by the Bureau of Reclamation’s (BOR) Pacific Northwest Region in Boise, Idaho.
The review was prompted by the Western Land Exchange Project, a nonprofit public interest
organization, located in Seattle, Washington, which expressed concerns regarding BOR’s
compliance with the environmental and land valuation requirements for the exchange. We
performed our review as part of our survey of BOR’s land acquisition activities. The
objective of our survey was to determine whether BOR conducted land acquisition activities
in accordance with applicable laws and regulations and paid a fair price for the land acquired.
The results of our overall survey will be presented in a separate report.

BACKGROUND

BOR acquires land for constructing its water development projects and for mitigating the
environmental impacts associated with those projects. The land involved in the Jasper land
exchange is adjacent to and in the vicinity of the Cascade Reservoir, located near Boise.
Constructed in 1948 as an irrigation and hydroelectric facility, the Reservoir has become
increasingly important for recreational uses, such as swimming, boating, camping,
picnicking, and fishing. BOR has attempted to acquire agricultural easements’ on the land
around the Reservoir in an effort to improve water quality by reducing grazing along the
shoreline. Section 5 of Public Law 86-92 (an act to add certain lands located in Idaho to the


‘When BOR purchased private property to create the Reservoir, most of the land was used for cattle grazing
and farming. Many of the sellers requested and received permanent easement rights to continue these uses,
to the exclusion of nonagricultural uses and development. These restrictions applied to both BOR, which
retained fee title to these lands, and the private easement holder. Accordingly, by acquiring these agricultural
easements, BOR would obtain full title to and control of the land.

                                                       3
Boise and Payette National Forests), enacted on July 17, 1959 (16 U.S.C. $ 486a-4?.6w),
authorizes BOR to exchange Federal lands in the vicinity of the Reservoir that are no longer
needed for project purposes for lands of “approximately equal value” within 300 feet of the
Reservoir’s shorelinee2

In 199 1, BOR prepared a Resource Management Plan to coordinate development and provide
guidance for managing the lands and facilities under BOR jurisdiction at the Reservoir. The
Plan recommended that BOR address deficiencies in water quality at the Reservoir by
acquiring the permanent agricultural easements around the Reservoir, thereby obtaining full
title to these lands. The Jasper exchange is the first exchange since the 1970s in which
BOR has sought to acquire an agricultural easement within the 300-foot area. In March
1997, the former Regional Director of the Pacific Northwest Region negotiated a tentative
agreement with the Jasper family, which owns an agricultural easement adjacent to the
Reservoir. Under the agreement, the Jaspers were to relinquish easement rights for
277.83 acres3 and also provide a road access easement to BOR in return for title to 55 acres
of Government-owned land, various easements, access to the Reservoir, and resolution of
an existing building trespass issue. On April 14, 1998, BOR and the Jaspers signed a land
exchange contract.

On July 1, 1998, an official of the Western Land Exchange Project contacted BOR and
questioned the adequacy of the environmental documentation for the exchange.
Subsequently, on July 17, 1998, BOR’s realty and environmental personnel from the Snake
River Area Office and the Regional Office determined that a site-specific environmental
assessment was needed. In a January 6,1999, letter to our office, a Project official reiterated
the Project’s concerns about environmental documentation and raised other concerns
regarding the fee appraiser’s consulting report for the exchange. As of October 1999, BOR
had not initiated work on the environmental assessment, and the land exchange had not been
finalized because issues concerning the points of access to the Reservoir had not been
resolved.

SCOPE

We conducted our review of BOR’s land acquisition activities, including the Jasper
exchange, from June through October 1999 at the Pacific Northwest Region. To obtain an
understanding ofBOR’s authority to conduct land exchanges, we reviewed relevant laws and
regulations and the Reclamation Manual. We also reviewed BOR’s implementing
regulations and procedures to identify the specific requirements for conducting land
exchanges and reviewed the Jasper land exchange transaction file at the Regional Office to
identify key documents and determine why and.how the exchange was being conducted. In
addition, we interviewed BOR program and realty personnel and the Regional Review


2The shoreline has been established in Public Law 86-92 as the normal water surface elevation of 4828 feet,
which represents the Reservoir’s high-water line.

‘Of the 277.83 acres, 239.33 acres are below the high-water line and are usable only when the Reservoir
recedes. The fee appraiser did not assign a monetary value to the 239.33 acres but only to the 38.5 acres above
the high-water line.

                                                       4
Appraiser to discuss the land exchange and verify information and data obtained through our
                                                                                     .
review of the land exchange file.

Our audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary to accomplish the
bbjective. As part of the audit, we examined BOR’s annual assurance statement on
management controls and the Departmental Reports on Accountability for fiscal years 1996,
1997, and 1998, which included information required by the Federal Managers’ Financial
Integrity Act, and determined that no material weaknesses were reported that related to
BOR’s land acquisition activities.

We reviewed the system of internal controls over BOR’s land acquisition activities and did
not identify any significant weaknesses. However, in our review of the Jasper exchange, we
found deficiencies in BOR’s compliance with environmental laws and regulations and in its
establishing fair market value’ for the land to be exchanged. These issues are addressed in
the Discussion section of this report.

                                          DISCUSSION
We found that the Pacific Northwest Region did not (1) prepare the required environmental
documentation for the Jasper land exchange or (2) establish fair value for the land to be
exchanged. The National Environmental Policy Act and the Departmental and Reclamation
Manuals establish requirements for environmental documentation, and the Uniform
Standards of Professional Appraisal Practice, the Uniform Appraisal Standards for Federal
Land Acquisitions, and the Reclamation Manual provide guidance for preparing and
reviewing appraisals and consulting reports. The Reclamation Manual also authorizes
regional directors or their designees to acquire land for more than the appraised fair market
value within specified limitations.’ BORofficials told us that the land exchange as originally
planned would not have required a separate environmental assessment and that they
considered the exchange to be fair because of additional benefits accruing to the Government
which they believed equalized the values of the lands being exchanged. In our opinion,
however, the Region did not adequately protect the Government’s interests when it entered
into the Jasper land exchange contract.

Environmental Compliance

The Region signed the land exchange contract without performing an environmental
assessment or updating its hazardous material inspection. The Code of Federal Regulations


4Fair market value is generally defined as the price that could be obtained in ari arm’+length transaction
between willing parties in other than a forced or a liquidation sale.

‘According to the Reclamation Manual (LND 06, 7.G( l)), regional directors or their designees may acquire
land above the appraised value as follows: without limitation if the appraised amount is less than $100,000,
by 15 percent if the appraisal amount is between S 100,000 and $500,000, and by 10 percent if the appraisal
amount is more than S500,OOO.

                                                     5
(40 CFR $1501.2) requires that agencies integrate the National Environmental Policy Act
process in planning decisions “at the earliest possible time to insure that planning and
decisions reflect environmental values . . . and to head off potential conflicts.” In addition,
the Departmental Manual (516 DM 3.2.A) requires that an environmental assessment be
prepared “for all actions, except those covered by a categorical exclusion, covered
sufficiently by an earlier environmental document, or for those actions for which a decision
has already been made to prepare an environmental impact statement.” The Departmental
Manual (602 DM 2.6.B) also requires that a “pre-acquisition environmental site assessment”
(hazardous material inspection) be performed and states that such an assessment “will be
considered adequate for a period not to exceed 12 months prior to the date of the acquisition
of real property.” (Emphasis added.)

According to the Region’s Lands and Recreation Manager, the Region did not perform an
environmental assessment for the land exchange because Regional officials believed that the
 199 1 Resource Management Plan for the Cascade Reservoir met the requirements of the Act.
In preparing the Resource Management Plan, the Region conducted an environmental
assessment in which the issue of acquiring perpetual agricultural easements around the
Reservoir was addressed, and it issued a “Finding of No Significant Impact.” However, as
stipulated in the March 1997 tentative agreement, the land exchange involved additional
provisions, such as obtaining public access to the Reservoir, that were not addressed in the
environmental assessment for the Resource Management Plan. Despite this expanded scope,
the Region did not address the need for further environmental reviews until the Western
Land Exchange Project questioned the adequacy of the existing environmental
documentation for the land exchange in July 1998, after which the Region agreed that a
site-specific environmental assessment was needed. We suggest that the Region, in the
future, comply with requirements of the Act before it enters into binding agreements.

In addition, BOR did not perform a hazardous material inspection within 12 months prior to
signing the land exchange contract in April 1998, as required by the Departmental Manual
(602 DM 2.6.B) and the Reclamation Manual (LND 06-01, 6.E). An inspection had been
performed during the summer of 1993, and the environmental concerns identified at that
time had been addressed. However, without a current hazardous material inspection, there
is no assurance that additional cleanup costs will not be required. We suggest that the
Region, in the future, ensure that hazardous material inspections are performed within the
required 12 months before it enters into binding agreements.

Land Valuation

BOR did not establish a fair value for the land to be exchanged. The consulting report used
by BOR as the basis for establishing the value of the BOR land and the Jasper easement was
prepared by an independent fee appraiser who was approved by both BOR and the Jaspers.
The consulting report, submitted on October 5, 1995, presented a value of $65,000 for the
Government land to be exchanged. It also presented a value based on the hypothetical use
and a value based on the actual use of the agricultural easement owned by the Jaspers. Under
the hypothetical use, the value of the agricultural easement was estimated at $33,000 based
on use of the easement primarily as irrigated pasture land. Under actual use, the value was
estimated at $18,000 based on the actual use of the land as dry pasture land. The Regional

                                              6
Review Appraiser recommended $18,000 as the fair market value of the agricultural
easement because the Uniform Appraisal Standards for Federal Land Acquisitions and the
Uniform Standards of Professional Appraisal Practice required that the value be based on
actual use.

Following negotiations with the Jaspers, the Regional Lands and Recreation Manager
administratively equalized the value of the properties to be exchanged by increasing the
recommended fair market value of the agricultural easement by $37,200 and decreasing the
value of BOR land by $9,800, to arrive at an equal value of $55,200. The Manager stated
that she believed the pending exchange was equitable and that it provided benefits to BOR,
such as providing public access to the Reservoir, improving the Reservoir’s water quality by
reducing grazing along the shoreline, and resolving a building trespass issue. Although the
Manager has the authority to administratively adjust the value of land to be acquired, we do
not believe that this authority extends to exchanges. The authorizing law (Public Law 86-92)
for this exchange requires that the non-Federal land exchanged for the excess Federal land
be “of not less than approximately equal value”; however, the law does not define “equal
value. ” We suggest that the Region request written clarification from the Regional Solicitor
on whether BOR has the authority to administratively adjust the value of land exchanges
conducted under Public Law 86-92.

We also noted that BOR did not use an appraisal to establish the values of the properties.
The Reclamation Manual (LDN 05-01) requires that the value ofthe private and public lands
exchanged be established based on an appraisal conducted in accordance with Federal
regulations and appraisal standards. However, we found that contrary to this requirement,
BOR used a consulting report to establish the values of the properties. According to the
consultant’s October 1995 letter to BOR, the consulting report was not intended to be a
“complete or full narrative appraisal report” and was considered limited in scope because it
conveyed only the consultant’s “preliminary range of values” of the properties.

In addition, the consulting report was 17 months old at the time of the tentative agreement
and 30 months old at the time the exchange contract was signed. We believe that the use of
a consulting report, especially one that was 30 months old, raises additional concerns as to
the fair value of the properties in April 1998, when the land exchange contract was signed.
Therefore, we suggest that the Region, in the future, use appraisals prepared in accordance
with applicable appraisal standards and the Reclamation Manual rather than consulting
reports in establishing property values in land exchanges. In addition, we suggest that
appraisals older than 1 year be reviewed and updated if necessary by either the original
appraiser or the regional reviewing appraiser familiar with the property.

On February 25,2000, we discussed the preliminary draft of this report with BOR officials,
who generaily concurred with the report’s findings and suggestions. We considered their
comments and incorporated them into this report as appropriate. Subsequent to the
discussion, BOR provided us with a copy of a letter from the Office of the Solicitor, Pacific
Northwest Region, dated February 10, 2000, to the Jaspers’ attorney, ‘stating that Property
Exchange Contract No. 7-07-L1455, dated April 14, 1998, had been voided because of
“mutual mistakes of fact” regarding property boundaries and compliance with environmental
assessment requirements.

                                              7
Since this report does not contain any recommendations, a response is not required.

Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.




                                                           ,




                                               8
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                    Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States
U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-508 1 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420



                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (67 1) 647-6060
Office of Inspector General
Guam Field Office
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-000 1

Toll Free Number
      l-800-424-508   I


Commercial Numbers
   (202) 208-5300
   TDD (202) 208-2420
